U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                    PUBLIC
                   RELEASE

             NATIONAL OCEANIC AND
       ATMOSPHERIC ADMINISTRATION

   NMFS’s Unallied Science Program Awards
           Were Not Competitively Selected,
                          CFDA No. 11.472


      Audit Report No. STL-10947-9-0001 / March 1999




                   Office of Audits, Seattle Regional Office
U.S. Department of Commerce                                                                          Audit Report STL-10947-9-0001
Office of Inspector General                                                                                            March 1999

                                                            CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

   I. Unallied Science Program Is Not Administered As a
      Competition-Based Financial Assistance Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

        A. NMFS did not develop and publish
           merit-based evaluation criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

        B. Solicitation and review process did not comply
           with competitive requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

        C. Noncompetitive awards under the program
           lacked adequate justification . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

   II. NOAA Reviews of Proposed NMFS Awards Are Not Effective . . . . . . . . . . . . . . . . . 11

   III. Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

         NOAA Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

         OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

   IV. Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

APPENDIX I - NOAA/NMFS Procedures for Solicitation, Review, and Selection of Awards

APPENDIX II - New Awards and Amendments for Fiscal Year 1997

APPENDIX III - Synopsis of Awards and Amendments for Fiscal Year 1997

APPENDIX IV - NOAA Response to Draft Report
U.S. Department of Commerce                                             Audit Report STL-10947-9-0001
Office of Inspector General                                                               March 1999

                                   EXECUTIVE SUMMARY

The Office of Inspector General conducted an audit of the fiscal year 1997 procedures and
practices for soliciting, reviewing, and selecting applications for financial assistance under the
National Oceanic and Atmospheric Administration’s National Marine Fisheries Service’s
(NMFS) Unallied Science Program, classified as No. 11.472 in the Catalog of Federal
Assistance. The audit was conducted as part of a Department-wide review of Commerce’s
discretionary financial assistance program initiated at the request of the Chairman of the Senate
Committee on Commerce, Science, and Transportation.

Discretionary financial assistance programs are those programs for which federal agencies have
the authority to independently determine the recipients and funding levels of the awards. These
programs involve a significant portion of the Commerce Department’s budget and operations,
approximately $1 billion annually. If not properly administered, they are susceptible to fraud,
waste, and misuse of funds.

Through the Unallied Science Program, NMFS provides grants and cooperative agreements for
biological, socio-economic, and physical science research on fishery stocks and protected
resources that will contribute to their optimal management; and to develop innovative approaches
and methods for marine and estuarine science. In fiscal year 1997, the program awarded six
cooperative agreements, five continuation amendments to existing cooperative agreements, and
two grants, totaling $4.11 million. All 13 awards were made noncompetitively in response to
unsolicited proposals. Six of the awards, totaling $3.22 million, were made on the basis of
language contained in the fiscal year 1997 appropriations conference report. The original awards
for which continuation amendments were used were also made noncompetitively in response to
unsolicited proposals.

We examined NMFS’s criteria, procedures and practices for the solicitation, review, and
selection of Unallied Science Program awards and found that they did not comply with
departmental and NOAA requirements and were not adequate to guide agency officials in making
merit-based discretionary funding decisions. We found that the program was not administered as
a competition-based financial assistance program, as encouraged by federal laws and regulations
and mandated by Commerce policies and procedures. In addition, we examined the written
justifications prepared for the 13 noncompetitive awards made in fiscal year 1997 and found
them to be inadequate. Specifically, we found that NMFS:

l      Did not comply with the Department’s requirement that merit-based evaluation criteria
       against which program applications for financial assistance could be reviewed, be
       developed and published (See page 7.)

l      Did not comply with the Department’s requirement that a notice be placed in the Federal
       Register, at least annually, announcing the availability of funds and soliciting award
       applications, and specifying the criteria and the process to be used in reviewing and
       selecting applications for funding. (See page 7.)


                                                 i
U.S. Department of Commerce                                            Audit Report STL-10947-9-0001
Office of Inspector General                                                              March 1999

l      Did not comply with the Department’s requirements that (1) all financial assistance
       awards be made on the basis of a competitive review process, unless a special waiver is
       obtained, and (2) the competitive review process meet minimum standards established by
       the Department. (See page 7.)

As a result of these deficiencies, NMFS cannot provide reasonable assurance that noncompetitive
awards made under the program are merit-based and represent the most effective means of
achieving program objectives.

Lacking competitive award procedures, there is a greater potential for NMFS to make
questionable or even inappropriate noncompetitive program awards in instances where
competition from other sources is available. NMFS risks forgoing the receipt of research
proposals from a broad range of eligible applicants and thus may lose opportunities to increase
the effectiveness of the Unallied Science Program.

We also found that the NOAA grants office did not provide adequate oversight of NMFS’s
administration of the program. (See page 12.)

In its response to the draft report, NOAA stated that the agency agrees that more awards should
be granted competitively for all discretionary funding programs and that a rigorous solicitation
process should be used. NOAA also stated that the agency is continuing to look at its current
processes and will provide more specific comments and details as part of the audit action plan
submitted in response to the final report (see Appendix III).

We recommend that the Assistant Administrator for for Fisheries ensure that financial assistance
awards under the Unallied Science Program are made on a competitive merit-based process,
unless otherwise mandated by law or adequately justified, and that the award process complies
with Department policies and procedures and includes the following four elements:

       (1)     Widespread solicitation of eligible applications and disclosure of essential
               application and program information in written solicitations;

       (2)     Independent application reviews that consistently apply written program
               evaluation criteria;

       (3)     Written justifications for award decisions that deviate from recommendations
               made by application reviewers; and

       (4)     Adequate written justifications for noncompetitive awards which document
               appropriate market search efforts to validate the determination that there is only
               one source for the anticipated award. The market search should include, at a
               minimum, a preaward notice in the Federal Register stating that the agency
               expects to make a noncompetitive award and inviting other qualified parties to
               inquire.

                                                 ii
U.S. Department of Commerce                                         Audit Report STL-10947-9-0001
Office of Inspector General                                                           March 1999


We also recommend that the Chief Financial Officer/Chief Administrative Officer, as Director of
the Office of Finance and Administration, which includes the Grants Management Division,
require that grants officer reviews of proposed noncompetitive awards include procedures
designed to objectively determine compliance with department and NOAA competitive
requirements.

Our recommendations appear on page 13.




                                              iii
U.S. Department of Commerce                                            Audit Report STL-10947-9-0001
Office of Inspector General                                                              March 1999

                                       INTRODUCTION

The National Oceanic and Atmospheric Administration’s (NOAA) mission is to describe and
predict changes in the Earth’s environment and to conserve and manage wisely the nation’s
coastal resources. The National Marine Fisheries Service’s (NMFS) mission is to provide
stewardship of living marine resources for the benefit of the nation through their science-based
conservation and management and promotion of the health of their environment. NOAA,
through NMFS, administers the Unallied Science Program, classified as No. 11.472 in the
Catalog of Federal Domestic Assistance. The program’s objectives are to provide grants and
cooperative agreements for biological, socio-economic, and physical science research on fishery
stocks and protected resources that will contribute to their optimal management; and for the
development of innovative approaches and methods for marine and estuarine science.

The Unallied Science Program does not have specific legislation authorizing a financial
assistance program and does not receive specific annual appropriations or funding allotments.
Program awards have always been made noncompetitively in response to unsolicited proposals.
The fiscal year 1997 awards, totaling $4,114,623, were funded with NMFS appropriations for its
fishery programs and under authorities of the Fish and Wildlife Coordination Act, the Fish and
Wildlife Act, the Marine Mammal Protection Act, and the Endangered Species Act.

The Fish and Wildlife Coordination Act, as amended, authorizes the Secretary of Commerce to
provide assistance to federal, state, and public and private agencies and organizations in the
development, protection, rearing, and stocking of species of wildlife, resources thereof, and their
habitat, and in controlling losses to the same from disease or other causes. The Fish and Wildlife
Act of 1956, as amended, authorizes the Secretary to perform research services on fish matters,
and to provide assistance for informational services, economic and technological development,
resource conservation, and resource management. The Marine Mammal Protection Act
authorizes the Secretary to enter into cooperative agreements or other transactions as may be
necessary to carry out the purposes of the Act and to provide financial assistance to any state
which has entered into such a cooperative agreement. The Endangered Species Act authorizes
the Secretary to enter into cooperative agreements with and provide financial assistance to any
state which establishes and maintains an adequate and active program for the conservation of
endangered and threatened species.

NMFS made 13 awards under the Unallied Science Program in fiscal year 1997. All 13 awards
were made noncompetitively to organizations that had submitted unsolicited proposals.
Unsolicited proposals are applications for financial assistance that are not submitted in response
to a formal solicitation notice published in the Federal Register. Nine of the proposals were
submitted in response to specific requests from NMFS. The projects and the organizations to be
funded had been identified by NMFS beforehand.

The awards consisted of six cooperative agreements, five continuation amendments to existing
cooperative agreements, and two grants to four states, three universities, a salmon authority, an
oceanographic institution, a consortium, and a private organization. The original awards for

                                                 1
U.S. Department of Commerce                                            Audit Report STL-10947-9-0001
Office of Inspector General                                                              March 1999

which continuation amendments were used were also made noncompetitively in response to
unsolicited proposals. NMFS chose the cooperative agreement as its award mechanism for six of
the eight new awards because program officials planned to be substantially involved in the
projects. For the remaining five cooperative agreements, NMFS chose a continuation
amendment to an existing agreement because the projects had been funded in the previous year.

Discretionary assistance programs are those for which federal agency officials have the authority
to decide (1) which eligible applicants will receive awards, and (2) how much financial
assistance will be awarded. Competition is generally recognized as the most effective means of
ensuring that financial assistance awards are made on the basis of merit. One of the primary
purposes of the Federal Grant and Cooperative Agreement Act (31 U.S.C. §6301) is to encourage
competition in the award of federal financial assistance to the maximum extent practicable.

The Office of Management and Budget (OMB) has issued guidelines on administering
competition-based financial assistance programs for use by federal agencies. An interagency
study group, convened in 1979 by OMB to examine competition in financial assistance
programs, determined that financial assistance award processes, to ensure effective competition,
should include three basic elements. These elements, which were discussed in OMB’s June 1980
report, Managing Federal Assistance is the 1980's, are still applicable, and include:

l      Widespread solicitation of eligible applicants and disclosure of essential application and
       program information in written solicitations;

l      Independent application reviews that consistently apply written program evaluation
       criteria; and

l      Written justifications for award decisions that deviate from recommendations made by
       application reviewers.

Also, OMB has issued the following circulars which set forth the policies and procedures to be
followed in administering federal financial assistance programs:

l      OMB Circular A-89, Federal Domestic Program Information, implements The Federal
       Program Information Act (P.L. 95-220) requiring agencies to systematically and
       periodically collect and distribute current information to the public on federal domestic
       assistance programs, which is accomplished through the semiannual publication of the
       Catalog of Federal Domestic Assistance.

l      OMB Circulars A-102, Grants and Cooperative Agreements with State and Local
       Governments, requires agencies to provide the public with advance notice in the Federal
       Register, or by other appropriate means, of their intended funding priorities for
       discretionary assistance programs unless such priorities are established by federal statute.
       Under A-102, when time permits, an agency must provide the public with an opportunity
       to comment on funding priorities. Finally, A-102 requires all grant awards over $25,000
       to be review for consistency with agency priorities by a policy level official.

                                                2
U.S. Department of Commerce                                            Audit Report STL-10947-9-0001
Office of Inspector General                                                              March 1999


l      OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements
       with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations,
       requires agencies to provide the public with advance notice of their intended funding
       priorities for discretionary assistance programs unless such priorities are established by
       federal statute.

l      OMB Circular A-123, Management Accountability and Control, implements the Federal
       Managers Financial Integrity Act (P.L. 97-255) requiring agencies to establish
       management controls for federal programs and operations, including financial assistance
       programs, that provide reasonable assurance that activities are effectively and efficiently
       managed to achieve agency goals.

Commerce has relied on OMB’s guidelines and circulars in developing and issuing policies and
procedures for its discretionary funding programs. Department Administrative Order (DAO)
203-26, Department of Commerce Grants Administration, requires that (1) all Commerce
financial assistance awards be made on the basis of competitive reviews unless a special waiver
is obtained, (2) competitive review processes meet minimum standards outlined in the DAO, and
(3) all Commerce agencies publish, at least annually, a notice in the Federal Register announcing
the availability of funding, soliciting award applications, and specifying the criteria and the
process to be used in reviewing and selecting applications for funding. In addition,
agency-initiated noncompetitive or unsolicited awards should be adequately justified in writing
as part of an internal control system defined in OMB Circular A-123 and required by DAO 203-
26, Section 4.02 i.

The chart presented on the following page depicts the basic process and controls for the
solicitation, evaluation, and selection of financial assistance awards as set forth in DAO 203-26.
The processes we reviewed during our audit are color coded for this chart and the NOAA/NMFS
process chart located in Appendix I.




                                                3
U.S. Department of Commerce                                                                                                                              Audit Report STL-10947-9-0001
Office of Inspector General                                                                                                                                                March 1999




                                          Department of Commerce Financial Assistance Awards Process
 Congress




                                    LEGISLATIVE AUTHORITY &
                                    APPROPRIATIONS REQUIREMENTS




                                                                                                                                  PREAWARD SCREENING
  Department




                                                                                                                                  * Office of General Counsel Review        FINANCIAL
                                    POLICIES &
                                                                                                                                                                            ASSISTANCE
                                    PROCEDURES                                                                                    * Office of Inspector General Review      REVIEW BOARD
                                                                                                                                    -- Limited Background Check
                                                                                                                                    -- Credit Review
                                                                                                                                    -- Outstanding Audit Issues




                                                       SOLICITATION
                                                                              REVIEW                                                           PREAWARD SCREENING
  Bureau/Program




                                                                                                      SELECTION
                                     POLICIES &        Public Announcement
                                     PROCEDURES        and Notification of    * Independent Review                                             * Outstanding Accounts
                                                                                                      *   Quantitative Scores                                               SIGNED BY GRANT
                                                       Financial Assistance      Panel(s)             *   Public Policy Considerations           Receivable                 OFFICER
                                                       Opportunities (e.g.,   * Evaluation Criteria   *   Recommend Action                     * Suspensions & Debarments   OR DESIGNATED
                                                       Federal Register,      * Numeric Ranking       *   Decision Fully Justified and         * Award Prepared Properly    OFFICIAL
                                                       Commerce Business                                  Documented
                                                       Daily, Internet Web
                                                       Sites)
  Financial Assistance Applicants




                                                                                                                                                                               AWARD
                                                       PROPOSAL




                                                                                                           4
U.S. Department of Commerce                                          Audit Report STL-10947-9-0001
Office of Inspector General                                                            March 1999

                                   PURPOSE AND SCOPE

This audit was conducted as part of a comprehensive review of the Department of Commerce’s
discretionary funding programs initiated at the request of the Chairman of the Senate Commerce,
Science, and Transportation Committee. The Chairman requested that the Inspectors General of
the Departments of Commerce and Transportation and the National Science Foundation review
the discretionary funding programs of their respective agencies to assess the manner in which
discretionary funding decisions are made. More specifically, the Chairman requested that each
IG review and report on the criteria developed, either statutorily or administratively, to guide
agency officials in making discretionary spending decisions, and on the extent to which the
criteria are appropriately applied.

We are conducting our Department-wide review in two phases: a survey phase and an individual
program audit phase. During the survey phase, we identified and examined the body of laws,
regulations, and other guidance applicable to the administration of federal financial assistance
programs. We also examined the authorizing legislation, provided by Department officials, for
each Commerce financial assistance program and classified each program as either a “full
discretion” program or a “limited discretion” program, based on the extent to which the
legislation limits the agency’s authority to independently determine the recipients and funding
levels of the awards made under the program. Finally, we examined the fiscal year 1997
appropriations legislation to identify legislatively mandated awards and reviewed accompanying
conference and committee reports to identify projects recommended for funding. No
legislatively mandated awards were found.

During the second phase of our review, we are conducting individual audits of the application
solicitation, review, and selection processes of each program we have classified as a “full
discretion” program, including the Unallied Science Program. We are evaluating the adequacy of
each program’s established award procedures and criteria for evaluating individual applications.
For those programs with procedures deemed to be adequate, we are ascertaining whether they
were followed in making awards in fiscal year 1997. For those programs with procedures
considered to be inadequate or lacking, we are reviewing how the fiscal year 1997 award
decisions were made. Finally, we are examining the legislatively mandated projects identified
for each program and determining their significance and impact on fiscal year 1997 award
decisions. We plan to issue individual reports, with any appropriate recommendations, on each
program, followed by a capping report summarizing the results of the individual audits and
providing recommendations for the Department and/or its bureaus.

On July 21, 1998, the Acting Inspector General and the Chief Financial Officer and Assistant
Secretary for Administration testified before the Senate Commerce, Science, and Transportation
Committee on the Department’s discretionary funding programs. The Acting IG reported on the
survey phase of the OIG review, and discussed some of the preliminary observations from the
individual program audits.



                                               5
U.S. Department of Commerce                                           Audit Report STL-10947-9-0001
Office of Inspector General                                                             March 1999

This performance audit focused on all awards made during fiscal year 1997 under the Unallied
Science Program. Specifically, we:

l      Reviewed the program authorization and other information published in the CFDA and
       provided by NOAA’s Office of Legislative Affairs to identify criteria for funding
       decisions.

l      Reviewed policies and procedures for soliciting, reviewing and selecting applications for
       funding (see Appendix I for flowchart of process). We also reviewed NOAA’s Grants
       and Cooperative Agreements Manual as it applied to the solicitation, review, and
       selection process and assessed whether it was adequate and in accordance with DAO 203-
       26, Department of Commerce Grants Administration, and Office of Federal Assistance
       Financial Assistance Notice No. 17, Department of Commerce Guidelines for the
       Preparation of Federal Register Notices Announcing the Availability of Financial
       Assistance Funds -- Requests for Applications.

l      Compared NOAA/NMFS procedures with its practices to determine if the process
       contained adequate internal controls to provide for competitive, merit-based awards.

l      Examined pertinent documents in individual program award files to determine if
       Departmental and NOAA policies and procedures were followed.

l      Interviewed NOAA/NMFS program office officials concerning NOAA/NMFS’s
       solicitation, review, and selection procedures.

l      Examined fiscal year 1997 appropriations legislation to identify legislatively mandated
       projects and the accompanying committee and conference reports to identify projects
       recommended for funding under this program.

We did not rely upon computer-based data supplied by NOAA and OEAM as a basis for our
audit findings and recommendations. We therefore conducted neither tests of the reliability of
the data, nor of the controls over the computer-based system that produced the data.

We performed the audit fieldwork at NOAA’s Grants Management Division in Silver Spring,
Maryland and our office in Seattle, Washington from April to June 1998. We conducted the
audit in accordance with generally accepted government auditing standards, and under the
authority of the Inspector General Act of 1978, as amended, and Department Organization Order
10-13, dated May 22, 1980, as amended.




                                                6
U.S. Department of Commerce                                          Audit Report STL-10947-9-0001
Office of Inspector General                                                            March 1999

                          FINDINGS AND RECOMMENDATIONS

We found that NMFS’s criteria, procedures and practices for the solicitation, review, and
selection of the Unallied Science Program awards did not comply with departmental and NOAA
requirements and were not adequate to guide agency officials in making merit-based
discretionary funding decisions. NMFS does not administer the program as a competition-based
financial assistance program. NMFS has not developed and published merit-based evaluation
criteria against which applications for funding could be reviewed, does not annually announce
the program in the Federal Register, and makes all awards under this program noncompetitively
in response to unsolicited proposals.

In addition, we reviewed the noncompetitive justifications for the 13 awards made in fiscal year
1997 and found them to be inadequate because NMFS did not provide sufficient support for the
unique applicant capabilities cited, did not correctly demonstrate that the awards were
legislatively mandated, and/or did not demonstrate that cited legislative authorities limited
awards to specific recipients. NOAA’s practices do not comply with Department and NOAA
requirements to seek maximum program competition. We also found that reviews performed by
the NOAA grants office of the proposed awards did not question NMFS’s lack of competitive
award procedures or the validity of the noncompetitive award justifications. As a result,
NOAA/NMFS cannot provide reasonable assurance that noncompetitive awards made under the
program are merit-based and represent the most effective means of achieving program objectives.

I.     Unallied Science Program Is Not Administered As a
       Competition-Based Financial Assistance Program

NMFS’s Unallied Science Program is not administered as a competition-based financial
assistance program, as encouraged by federal laws and regulations and mandated by Department
of Commerce policies and procedures. All of the awards made under the program are made
noncompetitively in response to unsolicited proposals. We examined the written justifications
prepared for the 13 noncompetitive awards made in fiscal year 1997 and found them to be
inadequate. Specifically, we found that NMFS:

l      Did not comply with the Department’s requirement that merit-based evaluation criteria
       against which program applications for financial assistance could be reviewed, be
       developed and published.

l      Did not comply with the Department’s requirement that a notice be placed in the Federal
       Register, at least annually, announcing the availability or funds and soliciting award
       applications, and specifying the criteria and the process to be used in reviewing and
       selecting applications for funding.

l      Did not comply with the Department’s requirements that (1) all financial assistance
       awards be made on the basis of a competitive review process, unless a special waiver is
       obtained, and (2) the competitive review process meet minimum standards established by
       the Department.

                                               7
U.S. Department of Commerce                                             Audit Report STL-10947-9-0001
Office of Inspector General                                                               March 1999


As a result of these deficiencies, NMFS cannot provide reasonable assurance that noncompetitive
awards made under the program are merit-based and represent the most effective means of
achieving program objectives.

A.   NMFS did not develop and publish
     merit-based evaluation criteria

The NOAA Grants and Cooperative Agreements Policy Manual, Chapter 1, Section A.4.,
requires that applications for financial assistance be reviewed by a panel of independent
reviewers in accordance with published criteria. The manual states that the criteria used for
evaluating applications must be published as part of the request for applications and prohibits
scoring against unpublished criteria. However, NMFS did not develop and publish merit-based
evaluation criteria against which competing program applications could be reviewed.

In particular, the agency did not place a notice in the Federal Register announcing the
availability of funding, soliciting competing applications for funding, and specifying the criteria
and the process to be used in reviewing and selecting applications for funding under the Unallied
Science Program for fiscal year 1997. Also, the NMFS Unallied Science Program summary,
published in the Catalog of Federal Domestic Assistance, does not cite program-specific
evaluation criteria. The summary simply states that proposals will be initially evaluated by the
pertinent NMFS Office, and are subject to review for technical merit, soundness of design,
competency of the applicant to perform the proposed work, potential contribution of the project
to national or regional goals, and appropriateness and reasonableness of proposed costs. In order
to be adequate to facilitate a merit-based evaluation process, criteria used to evaluate applications
for federal financial assistance must not be general in nature, but as specific as possible with
weights assigned to each criterion.

B.   Solicitation and review process did not comply
     with competitive requirements

Department Administrative Order 203-26, Section 4.02.b., requires Department bureaus to
publish an annual notice in the Federal Register for each financial assistance program
announcing the availability of funding, soliciting applications for funding, and specifying the
criteria and the process to be used in reviewing and selecting applications for funding. Section
4.02.f. also encourage the bureaus to publish notices in other widely distributed publications,
such as the Commerce Business Daily, to ensure widespread notice of funding opportunities.
Bureaus can also prepare and send requests for proposals directly to organizations known or
believed to be qualified. Also, NOAA’s Grants and Cooperative Agreements Policy Manual,
Chapter 1, Section A.4., states that it is NOAA’s policy to seek maximum competition for its
discretionary grants and cooperative agreements. To accomplish this, the manual states that
when appropriate, program offices should publish requests for applications in the Federal
Register or otherwise solicit applications from all eligible organizations.


                                                 8
U.S. Department of Commerce                                           Audit Report STL-10947-9-0001
Office of Inspector General                                                             March 1999

In addition, Department Administrative Order 203-26, Section 4.02.a., requires the establishment
of selection criteria for use in evaluating applications submitted for new awards. Section 4.02.h.
requires awards be made on the basis of competitive review, and Section 4.02.h.1.(e) requires the
use of the selection criteria in evaluating individual applications. Unless a program receives a
waiver of competitive review requirements, awards under the program are generally required to
be made on the basis of competitive review.

However, despite the Department and NOAA policies, NMFS did not announce the Unallied
Science Program in the Federal Register or Commerce Business Daily, and did not establish
merit-based criteria for evaluating proposals. By not announcing the program and establishing
award selection criteria as required, NMFS did not comply with Department as well as its own
policies and missed an important opportunity to seek potential program competition. In addition,
NMFS may have encouraged the use of noncompetitive awards by not developing selection
criteria for use in making awards for program needs when the anticipated awards cannot be
properly exempted from competitive review requirements.

Although NMFS did not announce the Unallied Science Program in the Federal Register, it still
could have placed preaward notices in the Federal Register publication announcing its intent to
fund specific program projects and requesting proposals or inviting inquires from interested
organizations. However, NMFS did not publish individual preaward notices in the Federal
Register for any of the 13 awards NMFS funded on the basis of noncompetitive justifications. In
our opinion, the publishing of preaward notices would have provided (1) the public with an
opportunity to comment on proposed projects, (2) other qualified recipients an opportunity to
submit proposals for funding, and (3) NMFS officials with independent support for determining
whether a recipient is uniquely qualified to perform proposed projects.

C. Noncompetitive awards under the program
   lacked adequate justification

In fiscal year 1997, NOAA/NMFS awarded six cooperative agreements, five continuation
amendments to existing cooperative agreements, and two grants under the Unallied Science
Program totaling $4,114,623. These awards were made to four states, three universities, a
salmon authority, an oceanographic institution, a consortium, and a private organization. A list
of the awards is provided as Appendix II. The awards were made noncompetitively to
organizations that had submitted unsolicited proposals for NMFS funding consideration. Also,
we noted that NMFS made 6 of the 13 awards on the basis of language contained in the fiscal
year 1997 Senate appropriations conference report. However, none of the six awards were
specifically contained in the fiscal year 1997 Appropriations Act and were, therefore, not
legislatively mandated. We understand that NMFS would want to consider conference report
language as an expression of congressional interest and intent. However, NMFS was not
required to make the awards without any consideration of competition or other merit-based
criteria. We also concluded that NMFS had no basis for not competing the awards. A synopsis
of all 13 noncompetitive awards is provided in Appendix III.


                                                9
U.S. Department of Commerce                                             Audit Report STL-10947-9-0001
Office of Inspector General                                                               March 1999

We examined the written justifications for the noncompetitive awards and noted that NMFS
justified all of the awards on the basis that each of the proposed recipients possessed unique
capabilities that made it either the best or the only organization qualified to do the work. None
of the noncompetitive justifications cited general market surveys performed to determine if other
institutions were interested or capable of performing similar work. Five of the written
justifications also referred to language contained in the fiscal year 1997 appropriations
conference report that NMFS believed established the awards as legislative mandates. Program
personnel stated that one additional award was made on the basis of fiscal year 1997
appropriations conference report language, but it was not mentioned in that award’s written
justification.

All 13 awards, totaling $4,114,623, had inadequate noncompetitive justifications because NMFS
did not provide sufficient support for the unique applicant capabilities cited, did not correctly
demonstrate that the awards were legislatively mandated, and/or did not demonstrate that the
recipients were the only ones who could perform the requested research. Specifically, the awards
included $1,464,000 to the University of Southern Mississippi, $845,250 to the State of Rhode
Island (two awards), $388,500 to the South Carolina Sea Grant Consortium, $303,900 to State of
South Carolina (two awards), $293,000 to Waldemar Nelson International, $245,165 to the
Woods Hole Oceanographic Institution, $205,718 to the Maine Atlantic Salmon Authority,
$172,900 to the State of New York, $102,000 to the State of Georgia, $50,000 to the Florida
State University, and $44,190 to the University of California.

Unsolicited proposals are applications for financial assistance that are not submitted in response
to a formal solicitation notice published in the Federal Register. Because unsolicited proposals
are a means by which unique or innovative ideas can be made available to accomplish specific
projects, scientific organizations like NOAA and NMFS encourage their submission. DAO 203-
26, Section 4.02.i., allows the receipt of unsolicited proposals, but states that no unsolicited
proposal may be funded outside the competitive process if that proposal falls within the program
goals of a competitive program. In addition, the receipt of a technically acceptable unsolicited
proposal does not, in itself, justify a noncompetitive award. DAO 203-26, Section 4.02.i., also
states that the decision to fund an unsolicited proposal must be fully justified and included in the
official grant file.

While NMFS wrote noncompetitive justifications for the 13 awards, the justifications do not cite
any factual basis for the assertions that the applicants possessed unique capabilities. For seven of
the awards - to the states of Rhode Island, South Carolina, New York, and Georgia and the
Maine Atlantic Salmon Authority - NMFS did provide support for its assertions that the entities
had authority for management of the fishery resources applicable to the awards. However,
NMFS did not demonstrate how this authority limited who could perform the desired research.
Since NMFS also did not comply with the Department’s requirement that a notice be published
in the Federal Register soliciting applications for fiscal year 1997 awards under the Unallied
Science Program, it lacked support for its claims that the organizations that submitted unsolicited
proposals were the only ones that could perform the work. Instead, the justifications contain


                                                 10
U.S. Department of Commerce                                            Audit Report STL-10947-9-0001
Office of Inspector General                                                              March 1999

statements by program office officials that are based on knowledge accumulated through their
past working relationships with recipients. Without documented support, a belief that an
organization possesses unique qualifications does not justify making a noncompetitive award
because there may be other qualified applicants unknown to program officials. Such a belief
should still be tested through a competitive review process that includes widespread solicitation
of eligible applicants, through announcement in the Federal Register and other means.

NMFS sites specific legislative authorities under the Atlantic Coastal Fisheries Cooperative
Management Act and the Endangered Species Act as part of the noncompetitive justifications for
four awards. Specifically, the awards included $845,250 (two awards) to the State of Rhode
Island, $102,000 to the State of Georgia, and $70,000 to the State of South Carolina. The
Atlantic Coastal Fisheries Cooperative Management Act requires the Secretary of Commerce to
assist in the conservation of Atlantic coastal fisheries, and authorizes the Secretary to provide
financial assistance to the states, to carry out provisions of the Act. The Endangered Species Act
authorizes the Secretary of Commerce to enter into cooperative agreements with and provide
financial assistance to any state which establishes and maintains an adequate and active program
for the conservation of endangered and threatened species. The states of Georgia and South
Carolina had an established and active program for the conservation of endangered species and
had entered into cooperative agreements with NMFS. Therefore, these laws permitted NMFS to
provide awards to those states, but did not require NMFS to make those particular
noncompetitive awards in that manner, and there was nothing in the acts that precluded NMFS
from allowing various states to compete for the awards.

Although the legislative authorities limited awards to eligible states, the awards still could have
been competed. Since NMFS did not comply with the Department’s requirement that a notice be
published in the Federal Register soliciting applications for fiscal year 1997 awards or publish
preaward notices prior to making these noncompetitive awards, it lacked support for its claims
that these states submitted the best proposals.

We believe the justification for a noncompetitive award should include a documented market
search to verify or confirm that there is only one source. The market search should include, at a
minimum, a preaward notice in the Federal Register stating that the agency expects to make a
noncompetitive award and inviting other interested and qualified parties to inquire. Such a
practice would be similar to the requirements in the Federal Acquisition Regulation (FAR) for
contracting (see 48 FAR, Part 6.302). In addition, the review process for a noncompetitive
award should ensure that the proposal meets program goals. NMFS did not publish individual
preaward notices for any of the four awards.

II.    NOAA Reviews of Proposed NMFS Awards Are Not Effective

Reviews performed by the NOAA grants office of the 13 proposed noncompetitive awards did
not question NMFS’s lack of competitive award procedures or the validity of the noncompetitive
award justifications. The NMFS regional office or science center forwarded, as required, its
justifications and related documents for the proposed noncompetitive awards to the grants office

                                                11
U.S. Department of Commerce                                             Audit Report STL-10947-9-0001
Office of Inspector General                                                               March 1999

for review and approval. However, the grants office’s review of the proposed awards did not
ensure the NMFS program office’s compliance with applicable Department and NOAA
competitive requirements.

DAO 203-26, Section 4.01., requires that each organization unit establish a central liaison to
ensure that its programs comply with federal, departmental, and organization grant requirements
and to review grant documents for compliance. The NOAA Office of Finance and
Administration, which includes the Grants Management Division, fulfills that responsibility for
NOAA.

The grant files do not indicate whether the Grants Management Division questioned why the
NMFS program office did not prepare and submit the required annual Federal Register program
announcement. The files also do not show whether the grants office determined if the
noncompetitive justifications were factually based or if the program office had made any attempt
to identify other qualified sources before submitting the noncompetitive awards. Grants
Management Division personnel stated that they relied on and accepted as valid the technical
descriptions of perceived unique capabilities presented in the program office’s award
justifications. They further stated that while they reviewed the justifications to determine if they
address one or more of the acceptable reasons for a noncompetitive award, they did not verify the
information because their office has no authority over the offices submitting the justifications,
they can not make field trips to verify information, and scientists involved would not consider
them qualified to make the type of scientific determinations included in the noncompetitive
justifications. Therefore, we believe the reviews were not effective in ensuring the program
office’s compliance with Department and NOAA policies on competition.

III.   Conclusions

We concluded that NMFS’s fiscal year 1997 award process under the Unallied Science Program
was not adequate to guide officials in making merit-based discretionary funding decisions
because NMFS did not develop and publish merit-based evaluation criteria and the
noncompetitive award of six cooperative agreements, five continuation amendments to existing
cooperative agreements, and two grants did not comply with Department and NOAA policies of
seeking maximum competition. Also, NMFS’s written justifications for the awards did not cite
any factual basis for its claims that the 13 applicants had unique capabilities, did not correctly
demonstrate that the awards were legislatively mandated by citing legislative authorities that
limited the awards being given noncompetitively to specific recipients. Despite these facts, the
NOAA grants office did not question the awards. By not following competitive procedures,
NOAA/NMFS could make questionable or even inappropriate noncompetitive program awards
in instances where competition is available. In addition, by not seeking competition, NMFS
misses the opportunity to consider proposals containing the ideas, designs, technology, or
services that other qualified organizations can produce and thus lose an opportunity to increase
program quality.



                                                12
U.S. Department of Commerce                                            Audit Report STL-10947-9-0001
Office of Inspector General                                                              March 1999

NOAA Response

In its response to the draft report, NOAA stated that the agency agrees that more awards should
be granted competitively for all discretionary funding programs and that a rigorous solicitation
process should be used. NOAA also stated that the agency is continuing to look at its current
processes and will provide more specific comments and details as part of the audit action plan
submitted in response to the final report.

OIG Comments

NOAA’s concurrence that more awards should be competitively awarded is a positive reaction to
this report. We look forward to the Unallied Science Program moving in that direction. We
have modified our recommendations in response to discussions with NOAA officials regarding
the draft report to clarify that we did not intend to suggest that all awards must be made
competitively. We understand that an unsolicited research proposal may very well be justified
for noncompetitive funding on an exception basis. However, we are emphasizing that an entire
program should not be administered on a noncompetitive basis, as this one is, unless mandated
by law.

IV.     Recommendations

We recommend that the Assistant Administrator for Fisheries ensure that financial assistance
awards under the Unallied Science program are made through a competitive merit-based process,
unless otherwise mandated by law or adequately justified, and that the award process complies
with Department policies and procedures and includes the following four elements:

       (1)     Widespread solicitation of eligible applications and disclosure of essential
               application and program information in written solicitations;

       (2)     Independent application reviews that consistently apply written program
               evaluation criteria;

       (3)     Written justifications for award decisions that deviate from recommendations
               made by application reviewers; and

       (4)     Adequate written justifications for noncompetitive awards which document
               appropriate market search efforts to validate the determination that there is only
               one source for the anticipated award. The market search should include, at a
               minimum, a preaward notice in the Federal Register stating that the agency
               expects to make a noncompetitive award and inviting other qualified parties to
               inquire.

We also recommend that the Chief Financial Officer/Chief Administrative Officer, as the
Director of the Office of Finance and Administration, which includes the Grants Management
Division, require that grants officer reviews of proposed noncompetitive awards include
procedures designed to objectively determine compliance with Department and NOAA
competitive requirements.

                                                13
U.S. Department of Commerce                                                                  Audit Report STL-10947-9-0001
Office of Inspector General                                                                                    March 1999

                                                                                                                   APPENDIX I
                                                                                                                    Page 1 of 1
                        NOAA/NMFS Procedures for Review and Selection of Awards




                                        Application submitted in response to
                                        legislative language or direct request
                                        from NOAA/NMFS




                                                       Program
                                             Office determines if should         No
                                                                                         Application
                                             be funded and if funds are
                                                                                          rejected
                                                      available


                                                      Yes




     Complete a Financial Assistance    Complete a Review Checklist
                                                                                      Complete Sole Source Justification
     Information Sheet:
                                         -- Competitive, sole source or
                                            congressionally mandated                  Submitted by Director/Chief of the
      --   Bureau
                                         -- Project analysis                          office or his designee
      --   Applicant
      --   Award period                  -- Conflict of interesrt
                                         -- Special award conditions                  Requests waiver to minimum
      --   Proposed amount
                                         -- Reporting requirements                    competitive review process and
      --   CFDA no.
                                         -- Grant or cooperative agreement?           gives justification
      --   Scope of work
      --   Statutory authority




                                               Send to NOAA Grants
                                               Management Office for
                                                review and approval




                                               Send to Department for                                    Solicitation Process
                                                review and approval


                                                                                                          Review Process



                                                                                                         Selection Process
U.S. Department of Commerce                                         Audit Report STL-10947-9-0001
Office of Inspector General                                                           March 1999

                                                                                     APPENDIX II
                                                                                       Page 1 of 1

                               UNALLIED SCIENCE PROGRAM

                        Awards and Amendments for Fiscal Year 1997

 Number         Type                Recipient                  Type of Work             Amount

 NA77FL0379     New Cooperative     State of Rhode Island      Narragansett Bay         $ 550,000
                Agreement                                      Research

 NA77FL0380     New Cooperative     State of Rhode Island      Narragansett Bay           295,250
                Agreement                                      Research

 NA77FL0150     New Cooperative     Waldemar Nelson            Aquaculture Research       293,000
                Agreement           International

 NA77FL0373     New Cooperative     Woods Hole Oceanographic   Small Cetaceans            245,165
                Agreement           Institution                Research

 NA77FL0290     New Cooperative     State of South Carolina    Red Drum Research          233,900
                Agreement

 NA77FL0433     New Cooperative     University of California   Atlantic Salmon             44,190
                Agreement                                      Research

 NA57FL0519     Amendment to        South Carolina Sea Grant   Molecular Biology          388,500
                Cooperative         Consortium                 Research
                Agreement

 NA57FL0149     Amendment to        Maine Atlantic Salmon      Atlantic Salmon            205,718
                Cooperative         Authority                  Research
                Agreement

 NA57FL0479     Amendment to        State of Georgia           Sea Turtle Research        102,000
                Cooperative
                Agreement

 NA67FL0388     Amendment to        State of South Carolina    Sea Turtle Research         70,000
                Cooperative
                Agreement

 NA57FL0122     Amendment to        Florida State University   Atlantic Salmon             50,000
                Cooperative                                    Research
                Agreement

 NA76FL0446     New Grant           University of Southern     Aquaculture Research      1,464,000
                                    Mississippi

 NA76FL0389     New Grant           State of New York          Striped Bass Research      172,900

                                                                            Total       $4,114,623




                                                15
U.S. Department of Commerce                                          Audit Report STL-10947-9-0001
Office of Inspector General                                                            March 1999

                                                                                 APPENDIX III
                                                                                   Page 1 of 13

                              UNALLIED SCIENCE PROGRAM

                  Synopsis of Awards and Amendments for Fiscal Year 1997

I.     Awards with Inadequate Noncompetitive Justifications

       NA76FL0446 - University of Southern Mississippi

       NMFS received an unsolicited proposal from the University of Southern Mississippi in
       the amount of $1,464,000. NOAA/NMFS awarded a $1,464,000 grant
       (No. NA76FL0446) to the University of Southern Mississippi in July 1997 using fiscal
       year 1997 appropriations that NMFS allocated for this award based on language
       contained in the fiscal year 1997 appropriations conference report and Senate committee
       report. The conference report states that, “Within the funds provided, the conference
       agreement adopts the recommendations included in the Senate report with respect to ...
       research related to rehabilitation of Gulf Coast fisheries”. The Senate committee report
       states that “$1,500,000 is to initiate a consortium to develop technologies to enhance,
       supplement, and rehabilitate marine fishery resources on Mississippi’s gulf coast.” The
       grant did not require a matching contribution. The award’s purpose was to fund research
       work on the refinement, field testing, and demonstration of a successful marine fishery
       stock management program for the U.S. coastal Gulf of Mexico that blends aquaculture
       technology with traditional fishery management practices. The project period was limited
       to one year.

       The written noncompetitive justification states that the cooperative agreement addresses a
       key component of the NMFS strategic plan; the fiscal year 1997 full Senate report
       provides funds to initiate a consortium to develop technologies for marine fishery
       resources on Mississippi’s gulf coast; and the University of Southern Mississippi’s Gulf
       Coast Research Laboratory is in the unique position to successfully complete this award.
       The noncompetitive justification also states that the Stock Enhancement Consortium,
       formed by the Gulf Coast Research Laboratory, the Oceanic Institute, and the Mote
       Marine Laboratory is the sole entity in the northern Gulf of Mexico that offers the
       expertise and multi-institutional organization needed to provide a comprehensive
       evaluation of marine stock enhancement in the northern Gulf of Mexico in a timely
       manner.

       The noncompetitive justification was inadequate because the project is not contained in
       the fiscal year 1997 Appropriations Act and therefore is not legislatively mandated, and
       NMFS did not provide evidence, such as the results of a published solicitation, that the
       University of Southern Mississippi was the only entity capable of performing the award.
U.S. Department of Commerce                                           Audit Report STL-10947-9-0001
Office of Inspector General                                                             March 1999

                                                                                  APPENDIX III
                                                                                    Page 2 of 13

       NA57FL0519 - South Carolina Sea Grant Consortium

       NMFS received an unsolicited proposal in the amount of $388,500 from the Cooperative
       Institute for Fisheries Molecular Biology (FISHTEC). NOAA/NMFS awarded a
       $388,500 amendment to an existing cooperative agreement (No. NA57FL0519) to the
       South Carolina Sea Grant Consortium in September 1997 using funds that NMFS
       allocated for this award based on language contained in the fiscal year 1997
       appropriations conference report. The conference report contains a line item to fund the
       Fisheries Cooperative Institute. The cooperative agreement required a matching
       contribution of $38,314. The award’s purpose was to administer, coordinate, and
       implement the research activities of FISHTEC. The proposed work is a continuation of
       molecular biology research initiated in prior years. The project period was limited to one
       year.

       NMFS personnel stated that the award was a legislatively mandated award because the
       fiscal year 1997 conference report contained a line item to fund FISHTEC. The written
       noncompetitive justification states that 1) FISHTEC was established in 1992 to meet the
       need for technological improvements in the management of U.S. fishery resources
       through the develop and application of genetic techniques, 2) FISHTEC is a cooperative
       institute comprised of the University of South Carolina, the South Carolina Department
       of Natural Resources, the NOAA/NMFS Charleston Lab, and other national and
       international collaborators, 3) the South Carolina Sea Grant Consortium, as the recipient
       of the FISHTEC award, includes the aforementioned state institutions and provides the
       focal point for management, coordination, and communication of all FISHTEC partners,
       and 4) the South Carolina Sea Grant Consortium provides the administrative and
       management services to the Institute.

       The noncompetitive justification was inadequate because the project is not contained in
       the fiscal year 1997 Appropriations Act and therefore is not legislatively mandated, and
       NMFS did not provide evidence, such as the results of a published solicitation, that the
       South Carolina Sea Grant Consortium was the only entity capable of performing the
       award.

       NA77FL0150 - Waldemar Nelson International

       NMFS received an unsolicited proposal from Waldemar Nelson International in the
       amount of $293,000. NOAA/NMFS awarded a $293,000 cooperative agreement
       (No. NA77FL0150) to Waldemar Nelson International in March 1997 using fiscal year
       1997 appropriations that NMFS allocated for this award based on language contained in
       the fiscal year 1997 appropriations conference report and Senate committee report. The
       conference report states that, “Within the funds provided, the conference agreement
U.S. Department of Commerce                                           Audit Report STL-10947-9-0001
Office of Inspector General                                                             March 1999

                                                                                  APPENDIX III
                                                                                    Page 3 of 13

       adopts the recommendations included in the Senate report with respect to ... research
       related to rehabilitation of Gulf Coast fisheries.” The Senate committee report states that
        “The Committee has provided funding to initiate a mariculture project to increase
       fisheries production utilizing the existing extensive system of offshore oil and gas
       production platforms.” The cooperative agreement did not require a matching
       contribution. The award’s purpose was to develop a cooperative program to investigate
       the technical, economic, and commercial feasibility of farm raising marine finfish in
       cages and, possibly, shellfish in trays in an open environment in the northern Gulf of
       Mexico, utilizing oil and gas production platforms. The project period was limited to one
       year.

       The written noncompetitive justification states that the cooperative agreement addresses a
       key component of the NMFS strategic plan; the fiscal year 1997 conference report
       provides funds to initiate a mariculture project to increase fisheries production utilizing
       offshore oil and gas production platforms; it was the Congressional intent that Waldemar
       Nelson International conduct the work; and Waldemar Nelson International is in a unique
       position to complete this award based on their capabilities and experience with
       production platforms.

       The noncompetitive justification is inadequate because the project is not contained in the
       fiscal year 1997 Appropriations Act and therefore is not legislatively mandated, the
       conference report provided in support of the legislative mandate does not specifically
       mention Waldemar Nelson International, and NMFS did not provide evidence, such as
       the results of a published solicitation, that the Waldemar Nelson Island was the only
       entity capable of performing the award.

       NA77FL0373 - Woods Hole Oceanographic Institution

       The NMFS Office of Protected Resources receives funding and selects projects to address
       NMFS responsibilities under the Marine Mammal Protection Act. The Marine Mammal
       Protection Act authorizes the Secretary of Commerce to enter into cooperative
       agreements or other transactions as may be necessary to carry out the purposes of the Act.
       This project was selected and its funding level established by the NMFS Office of
       Protected Resources. NMFS then requested that the Woods Hole Oceanographic
       Institution submit a proposal to NMFS for funding consideration. NMFS received a
       proposal in the amount of $245,165. NOAA/NMFS awarded a $245,165 cooperative
       agreement (No. NA77FL0373) to the Woods Hole Oceanographic Institution in
       September 1997 using funds provided in its fiscal year 1997 appropriations. The
       cooperative agreement did not require a matching contribution. The award’s purpose was
       to fund research work into the biology of small cetaceans in the Northwest Atlantic
U.S. Department of Commerce                                           Audit Report STL-10947-9-0001
Office of Inspector General                                                             March 1999

                                                                                  APPENDIX III
                                                                                    Page 4 of 13

       Ocean to improve the understanding of the biology of dolphins, porpoises, and small
       whales that are taken incidentally in commercial operations. The project period was
       limited to one year.

       The written noncompetitive justification states that the Woods Hole Oceanographic
       Institution is uniquely qualified to address the proposed research needs because personnel
       involved in the cooperative agreement are recognized world-wide as experts in the field
       of fisheries-impacted marine mammal populations; another firm would not possess the
       knowledge or have the capability to conduct the research; the data already collected by
       the Woods Hole Oceanographic Institution cannot be duplicated by another source; and
       personnel at the Woods Hole Oceanographic Institution are already active collaborators
       with Northeast Fisheries Science Center personnel which cannot be duplicated by another
       institution or firm.

       The noncompetitive justification was inadequate because NMFS did not provide
       evidence, such as the results of a published solicitation, that the Woods Hole
       Oceanographic Institution was the only entity capable of performing the award.

       NA77FL0290 - State of South Carolina

       NMFS received an unsolicited proposal from the State of South Carolina in the amount of
       $233,900. NOAA/NMFS awarded a $233,900 cooperative agreement
       (No. NA77FL0290) to the State of South Carolina in August 1997 using fiscal year 1997
       appropriations that NMFS allocated for this award based on fiscal year 1997
       appropriations conference report and Senate committee report language. The fiscal year
       1997 conference report states that, “Within the funds provided, the conference agreement
       adopts the recommendations included in the Senate report with respect to ... red drum
       research...”. The Senate committee report states that “the Committee expects that ... with
       continued funding for the red drum and assessment and tagging effort in South Carolina
       and for aerial surveys for red drum recapture and age composition study in the Gulf of
       Mexico.” The cooperative agreement did not require a matching contribution. The
       award’s purpose was to hold workshops on tag-return models, analyze and use red drum
       tag return data, continue tag and recapture studies, and prepare tag-return model and
       historic data publications. The project period was for three years.

       The noncompetitive justification states that the fiscal year 1997 Appropriations Act for
       the Department of Commerce provided funding at the $233,900 level to continue to
       support red drum tagging and assessment efforts in South Carolina, the South Carolina
       Division of Marine Resources is responsible for the management of marine resources
       within the jurisdiction of the State of South Carolina, personnel involved in the
       Cooperative Agreement are recognized as world-wide experts in the field of red drum
U.S. Department of Commerce                                           Audit Report STL-10947-9-0001
Office of Inspector General                                                             March 1999

                                                                                  APPENDIX III
                                                                                    Page 5 of 13

       biology, South Carolina Division of Marine Resources personnel have demonstrated
       through previous awards with NMFS that they are able to meet proposed deadlines, South
       Carolina Division of Marine Resources personnel have the specialized experience on data
       collection, the Division of Marine Resources has been conducting the type of work
       required for a number of years, the Division of Marine Resources already possesses most
       of the equipment that will be necessary for the successful conduct of the proposed
       research, and the number of years of data collected by the Division of Marine Resources
       could not be duplicated by another agency.

       The noncompetitive justification was inadequate because the project is not contained in
       the fiscal year 1997 Appropriations Act and therefore is not legislatively mandated, and
       NMFS did not provide evidence, such as the results of a published solicitation, that the
       State of South Carolina was the only entity capable of performing the award.

       NA57FL0149 - Maine Atlantic Salmon Authority

       The Maine Atlantic Salmon Authority was selected to perform research by the NMFS
       Northeast Science Center in response to research needs identified by the North Atlantic
       Salmon Conservation Organization (NASCO). The high seas Atlantic salmon fisheries
       are managed under the auspices of NASCO to which the United States is a member. In
       support of the U.S. Commissioners to NASCO and under the obligation of the North
       Atlantic Salmon Treaty, NMFS supplies scientific advice to the U.S. Commissioners and
       represents the United States at international Atlantic salmon scientific fora.

       The NE Science Center allocates funding for an Atlantic Salmon research program that is
       in part designed to meet informational needs identified by NASCO. At its annual
       meeting, NASCO agrees on scientific terms of reference which are forwarded to the
       International Council for the Exploration of the Seas (ICES). ICES serves as a scientific
       secretariat for organizations such as NASCO by forming international working groups on
       specific subjects. The ICES North Atlantic Salmon Working Group is convened annually
       and produces a report from material provided from member nations. NASCO then uses
       this data to formulate management measures for salmon in the North Atlantic.

       The research to be performed by the NE Science Center was identified in the then recent
       terms of reference for the North Atlantic Salmon Working Group. The NE Science
       Center identified the Maine Atlantic Salmon Authority as being funded to perform this
       research in the NE Science Center’s Spending Plan for Atlantic Salmon.

       NMFS requested that the Maine Atlantic Salmon Authority submit a proposal for funding
       consideration. NMFS received a proposal for $205,718. NOAA/NMFS awarded a
       $205,718 continuation to a cooperative agreement (No. NA77FL0433) to the Maine
U.S. Department of Commerce                                           Audit Report STL-10947-9-0001
Office of Inspector General                                                             March 1999

                                                                                  APPENDIX III
                                                                                    Page 6 of 13

       Atlantic Salmon Authority in May 1997 using funds provided in its fiscal year 1997
       appropriations. The cooperative agreement did not require a matching contribution. The
       award’s purpose was to fund data collection efforts in Maine rivers on adult Atlantic
       salmon. The project period was limited to one year.

       The written noncompetitive justification states that in support of the U.S. Commissioners
       to the North Atlantic Salmon Conservation Organization and under obligation of the
       North Atlantic Salmon Treaty, NMFS supplies scientific advice to the Commissioners,
       the Maine Atlantic Salmon Authority is the agency designed as the official collection
       agency for Maine Atlantic salmon fishery data and is responsible for the management for
       the state’s salmon resource, personnel involved in the Cooperative Agreement are
       recognized world-wide as experts in the field of salmon fishery biology, have specialized
       experience, and have been conducting the type of work required in the cooperative
       agreement for a number of years, the Maine Atlantic Salmon Authority has much of the
       equipment necessary for the successful conduct of the proposed research, and the number
       of years of data already collected by the Maine Atlantic Salmon Authority can not be
       duplicated by another agency.

       The noncompetitive justification was inadequate because NMFS did not provide
       evidence, such as the results of a published solicitation, that the Maine Atlantic Salmon
       Authority was the only entity capable of performing the award; and neither the North
       Atlantic Salmon Conservation Organization nor the North Atlantic Salmon Treaty limit
       NMFS to providing assistance only to the Maine Atlantic Salmon Authority.

       NA76FL0389 - State of New York

       The State of New York was selected to perform research by the NMFS Northeast Science
       Center in response to research needs identified by the Atlantic States Marine Fisheries
       Commission. The NE Science Center identified the State of New York as being funded
       to perform this research in the NE Science Center’s Spending Plan for striped bass.
       NMFS requested that the State of New York submit a proposal for funding consideration.
       NMFS received a proposal for $172,900. NOAA/NMFS awarded a $172,900 grant (No.
       NA77FL0389) to the State of New York in August 1997 using funds provided in its fiscal
       year 1997 appropriations and allocated for striped bass research. The cooperative
       agreement required a $19,211 matching contribution from the state, bringing the project
       budget to $192,111. The award’s purpose was to fund research of striped bass in the
       marine district of New York State through an ocean haul seine study. The project period
       was limited to one year.
U.S. Department of Commerce                                           Audit Report STL-10947-9-0001
Office of Inspector General                                                             March 1999

                                                                                   APPENDIX III
                                                                                     Page 7 of 13

       The written noncompetitive justification states that the Atlantic striped bass are managed
       under the auspices of the Atlantic States Marine Fisheries Commission to which NMFS is
       a member, the commission coordinates the development of fishery management plans
       through its member states which are responsible for implementing the plans, the
       commission published a plan for striped bass, an ocean haul seine study along New
       York’s eastern Long Island has been identified as the highest priority information needed
       to monitor the success of the plan, the New York Department of Environmental
       Conservation is the designated agency in New York to manage fish populations and is
       responsible for the management of the state’s Atlantic striped bass resource, personnel
       involved in the project are recognized as experts in the field of striped bass fishery
       biology, have specialized experience, and have been conducting the type of work required
       in the grant for a number of years, another firm would not possess the detailed knowledge
       of collection sites and techniques nor have the capability to access the data that have
       already been collected, the Department of Environmental Conservation already has much
       of the necessary equipment, and the number of years of data that already have been
       collected by the Department of Environmental Conservation can not be duplicated by
       another agency.

       The noncompetitive justification was inadequate because NMFS did not provide
       evidence, such as the results of a published solicitation, that the State of New York was
       the only entity capable of performing the award.

       NA57FL0122 - Florida State University

       Florida State University was selected to perform research by the NMFS Northeast
       Science Center in response to research needs identified by the North Atlantic Salmon
       Conservation Organization (NASCO). The high seas Atlantic salmon fisheries are
       managed under the auspices of NASCO to which the United States is a member. In
       support of the U.S. Commissioners to NASCO and under the obligation of the North
       Atlantic Salmon Treaty, NMFS supplies scientific advice to the U.S. Commissioners and
       represents the United States at international Atlantic salmon scientific fora.

       The NE Science Center allocates funding for an Atlantic Salmon research program that is
       in part designed to meet informational needs identified by NASCO. At its annual
       meeting, NASCO agrees on scientific terms of reference which are forwarded to the
       International Council for the Exploration of the Seas (ICES). ICES serves as a scientific
       secretariat for organizations such as NASCO by forming international working groups on
       specific subjects. The ICES North Atlantic Salmon Working Group is convened annually
       and produces a report from material provided from member nations. NASCO then uses
       this data to formulate management measures for salmon in the North Atlantic.
U.S. Department of Commerce                                            Audit Report STL-10947-9-0001
Office of Inspector General                                                              March 1999

                                                                                    APPENDIX III
                                                                                      Page 8 of 13

       The research to be performed by the NE Science Center was identified in the then recent
       terms of reference for the North Atlantic Salmon Working Group. The NE Science
       Center identified Florida State University as being funded to perform this research in the
       NE Science Center’s Spending Plan for Atlantic Salmon.

       NMFS requested that Florida State University submit an unsolicited proposal for funding
       consideration. NMFS received an unsolicited proposal in the amount of $50,000.
       NOAA/NMFS awarded a $50,000 continuation amendment to cooperative agreement
       (No. NA57FL0122) to Florida State University in May 1997 using funds provided in its
       fiscal year 1997 appropriations. The cooperative agreement did not require a matching
       contribution. The award’s purpose was to fund research work related to developing a
       historical time series of ocean surface current data for the North Atlantic and use it in a
       migration model of Atlantic Salmon. The project period was limited to one year.

       The written noncompetitive justification states that in support of the U.S. Commissioners
       to the North Atlantic Salmon Conservation Organization and under obligation of the
       North Atlantic Salmon Treaty, NMFS supplies scientific advice to the Commissioners;
       personnel involved in the Cooperative Agreement are recognized world-wide as experts
       in the field of oceanographic modeling and are uniquely qualified; another firm would not
       possess the knowledge or have the capability to conduct the research; the university has
       the necessary equipment to conduct the proposed research; and the number of years of
       data already analyzed cannot be duplicated by another agency.

       The noncompetitive justification was inadequate because NMFS did not provide
       evidence, such as the results of a published solicitation, that Florida State University was
       the only entity capable of performing the award.

       NA77FL0433 - The Regents of the University of California

       The NMFS Northeast Science Center selected the University of California to perform
       research in response to research needs identified by the North Atlantic Salmon
       Conservation Organization (NASCO). The high seas Atlantic salmon fisheries are
       managed under the auspices of NASCO to which the United States is a member. In
       support of the U.S. Commissioners to NASCO and under the obligation of the North
       Atlantic Salmon Treaty, NMFS supplies scientific advice to the U.S. Commissioners and
       represents the United States at international Atlantic salmon scientific fora.

       The NE Science Center allocates funding for an Atlantic Salmon research program that is
       in part designed to meet informational needs identified by NASCO. At its annual
       meeting, NASCO agrees on scientific terms of reference which are forwarded to the
       International Council for the Exploration of the Seas (ICES). ICES serves as a scientific
U.S. Department of Commerce                                             Audit Report STL-10947-9-0001
Office of Inspector General                                                               March 1999

                                                                                    APPENDIX III
                                                                                      Page 9 of 13

       secretariat for organizations such as NASCO by forming international working groups on
       specific subjects. The ICES North Atlantic Salmon Working Group is convened annually
       and produces a report from material provided from member nations. NASCO then uses
       this data to formulate management measures for salmon in the North Atlantic.

       The research to be performed by the NE Science Center was identified in the then recent
       terms of reference for the North Atlantic Salmon Working Group. The NE Science
       Center identified the University of California as being funded to perform this research in
       the NE Science Center’s Spending Plan for Atlantic Salmon.

       NMFS requested that the University of California submit a proposal to NMFS for
       funding consideration. NMFS received a proposal for $44,190. NOAA/NMFS awarded
       a $44,190 cooperative agreement (No. NA77FL0433) to the University of California in
       August 1997 using funds provided in its fiscal year 1997 appropriations. The cooperative
       agreement did not require a matching contribution. The award’s purpose was to
       fundresearch to implement and test a model for the effects or environmental factors on
       smolting and maturation in Atlantic salmon. The project period was limited to one year.

       The written noncompetitive justification states that in support of the U.S. Commissioners
       to the North Atlantic Salmon Conservation Organization and under obligation of the
       North Atlantic Salmon Treaty, NMFS supplies scientific advice to the Commissioners;
       personnel involved in the Cooperative Agreement are recognized world-wide as experts
       in the field of salmon life history, have specialized experience, and have been conducting
       the type of work required in the cooperative agreement for over a decade; and that the
       University of California has the equipment necessary for the successful conduct of the
       proposed research.

       The noncompetitive justification was inadequate because NMFS did not provide
       evidence, such as the results of a published solicitation, that the University of California
       was the only entity capable of performing the award.

II.    Awards with Limiting Legislation

       NA77FL0379 - State of Rhode Island

       The fiscal year 1997 appropriations conference report states that, “Within the funds
       provided, the conference agreement adopts the recommendations included in the Senate
       report with respect to ...... pollution and depletion of stocks in Narragansett Bay.” The
       Senate committee report states that “$1,500,000 is provided to establish a joint federal-
       state partnership for critical studies regarding pollution and depletion of stocks in
       Narragansett Bay”. Based on the conference report and Senate committee report
U.S. Department of Commerce                                             Audit Report STL-10947-9-0001
Office of Inspector General                                                               March 1999

                                                                                     APPENDIX III
                                                                                      Page 10 of 13

       language, NMFS allocated funds for this purpose, coordinated with the State of Rhode
       Island, and requested that the state submit a project proposal to NMFS for funding
       consideration. NMFS received a proposal in the amount of $550,000. NOAA/NMFS
       awarded a $550,000 cooperative agreement (No. NA77FL0379) to the State of Rhode
       Island in September 1997. The cooperative agreement did not require a matching
       contribution. The award’s purpose was to fund contractual services to design, construct,
       outfit, and place in service a new research vessel for the State of Rhode Island. The
       project period was limited to one year.

       The written noncompetitive justification states that, “PL 104-208, the FY 1997 Omnibus
       Appropriations Act, provides the legislative and Congressional authorization to establish
       a joint federal-state partnership for critical studies regarding pollution and depletion of
       fishery resources in Narragansett Bay” and with collaboration between NMFS and the
       state, a water quality and fisheries monitoring program was developed in response to this
       authorization. The construction of a marine research vessel accommodates enhanced
       collaborative capabilities for monitoring and management of coastal and estuarine
       fisheries. The justification also states that NMFS has jurisdiction over fisheries within
       the Exclusive Economic Zone, the Atlantic Coastal Fisheries Cooperative Management
       Act requires the Secretary of Commerce to assist in the conservation of Atlantic coastal
       fisheries, the Secretary is authorized to provide financial assistance to the Atlantic States
       Marine Fisheries Commission and the states, including Rhode Island, to carry out
       provisions of the Act, the responsibility of managing Atlantic coastal fisheries in the
       Territorial Sea rests with the states, and as such projects must be conducted by or
       coordinated through state agencies having management authority over concerned
       fisheries, the Rhode Department of Environmental Management is designated as the
       official agency in Rhode Island to manage marine and estuarine resources, and the state
       personnel have demonstrated through previous grants that they can meet proposed
       deadlines.

       The noncompetitive justification was inadequate because the project is not contained in
       the fiscal year 1997 Appropriations Act and therefore is not legislatively mandated;
       NMFS did not provide evidence, such as the results of a published solicitation, that the
       State of Rhode Island was the only entity capable of performing the award; and the
       Atlantic Coastal Fisheries Cooperative Act does not limit NMFS to providing assistance
       only to the State of Rhode Island.

       NA77FL0380 - State of Rhode Island

       The fiscal year 1997 appropriations conference report states that, “Within the funds
       provided, the conference agreement adopts the recommendations included in the Senate
       report with respect to ... pollution and depletion of stocks in Narragansett Bay. The
U.S. Department of Commerce                                           Audit Report STL-10947-9-0001
Office of Inspector General                                                             March 1999

                                                                                  APPENDIX III
                                                                                   Page 11 of 13

       Senate committee report states that “$1,500,000 is provided to establish a joint federal-
       state partnership for critical studies regarding pollution and depletion of stocks in
       Narragansett Bay.” Based on the conference report and Senate committee report
       language NMFS allocated funds for this purpose, coordinated with the State of Rhode
       Island, and requested that the state submit a project proposal to NMFS for funding
       consideration. NMFS received a proposal in the amount of $295,250. NOAA/NMFS
       awarded a $295,250 cooperative agreement (No. NA77FL0380) to the State of Rhode
       Island in September 1997 using funds contained in its fiscal year 1997 appropriations.
       The cooperative agreement did not require a matching contribution. The award’s purpose
       was to initiate Phase 1 of a long-term water quality and fishery management initiative.
       Specifically, the award will be used to install automated monitoring equipment in
       Narragansett Bay, establish a data management system, and provide scientific fishery
       assessment data. The project period was for two years.

       The written noncompetitive justification states that, “PL 104-208, the FY 1997 Omnibus
       Appropriations Act, provides the legislative and Congressional authorization to establish
       a joint federal-state partnership for critical studies regarding pollution and depletion of
       fishery resources in Narragansett Bay” and with collaboration between NMFS and the
       state, a water quality and fisheries monitoring program was developed in response to this
       authorization. This cooperative agreement accommodates enhanced collaborative
       capabilities for monitoring and management of coastal and estuarine fisheries by
       supporting Phase I implementation of a marine research agenda for Rhode Island. The
       justification also states that NMFS has jurisdiction over fisheries within the Exclusive
       Economic Zone, the Atlantic Coastal Fisheries Cooperative Management Act requires the
       Secretary of Commerce to assist in the conservation of Atlantic coastal fisheries, the
       Secretary is authorized to provide financial assistance to the Atlantic States Marine
       Fisheries Commission and the states, including Rhode Island, to carry out provisions of
       the Act, the responsibility of managing Atlantic coastal fisheries in the Territorial Sea
       rests with the states, and as such projects must be conducted by or coordinated through
       state agencies having management authority over concerned fisheries, the Rhode
       Department of Environmental Management is designated as the official agency in Rhode
       Island to manage marine and estuarine resources, and the state personnel have
       demonstrated through previous grants that they can meet proposed deadlines.

       The noncompetitive justification was inadequate because the project is not contained in
       the fiscal year 1997 Appropriations Act and therefore is not legislatively mandated;
       NMFS did not provide evidence, such as the results of a published solicitation, that the
       State of Rhode Island was the only entity capable of performing the award; and the
       Atlantic Coastal Fisheries Cooperative Act does not limit NMFS to providing assistance
       only to the State of Rhode Island.
U.S. Department of Commerce                                          Audit Report STL-10947-9-0001
Office of Inspector General                                                            March 1999

                                                                                 APPENDIX III
                                                                                  Page 12 of 13

       NA57FL0479 - State of Georgia

       The NMFS Office of Protected Resources allocates funding and selects projects to
       address NMFS responsibilities under the Endangered Species Act. The Endangered
       Species Act authorizes the Secretary of Commerce to enter into cooperative agreements
       with and provide financial assistance to any state which establishes and maintains an
       adequate and active program for the conservation of endangered and threatened species.
       This project was selected and its funding level established by the NMFS Office of
       Protected Resources. NMFS then requested that the State of Georgia submit a proposal
       to NMFS for funding consideration. NMFS received a proposal in the amount of
       $102,000. NOAA/NMFS awarded a $102,000 continuation amendment to an existing
       cooperative agreement (No. NA57FL0479) to the State of Georgia in September 1997
       using funds provided in its fiscal year 1997 appropriations. The cooperative agreement
       required a $34,000 matching contribution from the state, bringing the project budget to
       $136,000. The award’s purpose was to fund research work into loggerhead sea turtle
       genetic samples. The project period was limited to one year.

       The written noncompetitive justification states that by regulation the Endangered Species
       Act authorizes the Secretary to cooperate to the maximum extent practicable with the
       states and enter into cooperative agreements with any state which establishes and
       maintains an adequate and active program for the conservation of endangered and
       threatened species, the State of Georgia has met the criteria and operates an approved
       conservation program, and the State of Georgia has management authority over the
       threatened and endangered species to which the subject project applies.

       The noncompetitive justification was inadequate because the Endangered Species Act
       does not limit NMFS to providing assistance only to the State of Georgia.

       NA67FL0388 - State of South Carolina

       The NMFS Office of Protected Resources allocates funding and selects projects to
       address NMFS responsibilities under the Endangered Species Act. The Endangered
       Species Act authorizes the Secretary of Commerce to enter into cooperative agreements
       with and provide financial assistance to any state which establishes and maintains an
       adequate and active program for the conservation of endangered and threatened species.
       This project was selected and its funding level established by the NMFS Office of
       Protected Resources. NMFS then requested that the State of South Carolina submit a
       proposal to NMFS for funding consideration. NMFS received a proposal in the amount
       of $70,000. NOAA/NMFS awarded a $70,000 continuation amendment to an existing
       cooperative agreement (No. NA67FL0388) to the State of South Carolina in September
U.S. Department of Commerce                                           Audit Report STL-10947-9-0001
Office of Inspector General                                                             March 1999

                                                                                  APPENDIX III
                                                                                   Page 13 of 13

       1997 using funds provided in its fiscal year 1997 appropriations. The cooperative
       agreement required a $25,131 matching contribution from the state, bringing the project
       budget to $95,131. The award’s purpose was to implement portions of recovery plans for
       U.S. populations of endangered sea turtles in South Carolina. The project period was
       limited to one year.

       The written noncompetitive justification states that by regulation the Endanger Species
       Act authorizes the Secretary to cooperate to the maximum extent practicable with the
       states and enter into cooperative agreements with any state which establishes and
       maintains an adequate and active program for the conservation of endangered and
       threatened species, the State of South Carolina has met the criteria and operates an
       approved conservation program, and the State of South Carolina has management
       authority over the threatened and endangered species to which the subject project applies.

       The noncompetitive justification was inadequate because the Endangered Species Act
       does not limit NMFS to providing assistance only to the State of South Carolina.
